No. 20– 7834
In the

Supreme Court of the United States
STEVEN COOPER,
Petitioner,

v.
STATE OF FLORIDA,

Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE BRIEF IN
OPPOISTION TO A PETITION FOR A WRIT OF CERTIORARI TO THE
FIRST DISTRICT COURT OF APPEAL
DIRECTED TO THE HONORABLE CLARENCE THOMAS,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED STATES
AND CIRCUIT JUSTICE FOR THE ELEVENTH CIRCUIT
ASHLEY MOODY
Attorney General of Florida
TRISHA MEGGS PATE*
Bureau Chief
Tallahassee Criminal Appeals
OFFICE
OF
THE
ATTORNEY
GENERAL
The Capitol, PL-01
Tallahassee, Florida 32399-1050
Phone: (850) 414-3603
Trisha.pate@myfloridalegal.com
*Counsel of Record for Applicant
July 2, 2021

APPLICATION FOR AN EXTENSION OF TIME TO BRIEF IN OPPOSITION
TO A PETITION FOR A WRIT OF CERTIORARI

To the Honorable Clarence Thomas, Associate Justice of the Supreme
Court of the United States, as Circuit Justice for the United States Court of
Appeals for the Eleventh Circuit:
Respondent, the State of Florida, respectfully requests an extension of 30 days
for the State to file its brief in opposition in this non-capital case. The brief in
opposition is currently due on Thursday, July 15, 2021. See S. Ct. R. 13.1, 13.3. By
operation of Supreme Court Rule 30.1, a 30-day extension would make a petition for
a writ of certiorari due on Monday August 16, 2021.

CONCLUSION
The State of Florida respectfully requests that the Court extend the time
within which to file its brief in opposition until August 16, 2021.

Respectfully submitted,
ASHLEY MOODY
Attorney General of Florida
TRISHA MEGGS PATE*

Bureau Chief, Tallahassee Criminal
Appeals
Counsel of Record
OFFICE OF THE ATTORNEY GENERAL
The Capitol – PL01
Tallahassee, Florida 32399-1050
Phone: (850) 414-3603
Trisha.pate@myfloridalegal.com
*Counsel of Record

